1

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Brent L. Alford - PETITIONER
VS.
Sam Cline, et al. - RESPONDENTS
PROOF OF SERVICE
I, Brent L. Alford, do swear or declare that on this date,

h ~&f~

lOj ZOZ.0, as

required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS AND PETITION FOR WRIT OF HABEAS CORPUS on each party to
the above proceeding or that Party's counsel, and on every other person required to be served,
by depositing-an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commerical carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Sam Cline, Warden, Department of Corrections, 714 SW Jackson St., Ste 300, Topeka, KS
66603,
and Attorney General Derek Schmidt, Memorial Hall, 120 SW 10th Ave., Topeka, KS 66612
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

RECEIVED
SEP 1 7 2020
OFFtO«= OF THE Cf
-ME COUP;..

q. "to

, 2020

NOTARY PUBLIC-State of Kansas
4,
,
SCOTT SPRApLING
ra!»IK!fi3!
Ejjg 1»11) l

1 My Appt Expires

